WAIVER
Supreme Court of the United States
No. 20-5313
New York
(Respondent)

v.

Melquan Tucker
(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes: ,
0

Please enter my appearance as Counsel of Record for all respondents.

-fhere are multiple respondents, and I do not represent all respondents. Please enter my
tg""4.--appearance as Counsel of Record for the following respondent(s):

ARA boo Nay
To NFNI OF/r/
0

cE

I am a member of the Bar of the Supreme Court of the United States.
am not presently a member of the Bar of this Court. Should a response be requested,
the response w befiled by Rar member.„--Signature
Date.

S

(Type or print) Name
Mr.

El Ms.

0 Mrs.

0 Miss

nrin Niagara County District Attorney's Office
Address 175 Hawley Street
City & State Lockport, New York

Zip 14094

Phone 716-439-7085
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc: Erin A. Kulesus, Legal
290 Main Street, Suite
Dennis A. Rambaud, New
28 Liberty Street, New

Aid Bureau of Buffalo, Inc.
350, Buffalo, NY 14202
York State Office of the Attorney General
York, NY 10005
RECEIVED

SEP 10 2020
at
Obtain status of case on the docket. By phone at 202-479-3034 or via the intern t OfFICE
OF THE C4_ERK
http://www.supremecourtus.gov. Have the Supreme Court docket number avail b'SUPREME COURT, U.S.

